COVINGTON Covington & Burling LLP

One CityCenter

BEIJING BRUSSELS DUBAI FRANKFURT JOHANNESBURG 850 Tenth Street, NW
LONDON LOS ANGELES NEW YORK PALO ALTO Washington, DC 20001-4956
SAN FRANCISCO SEOUL SHANGHAI WASHINGTON T +1202 6626000

Via Messenger December 17, 2019

The Honorable Scott S. Harris
Clerk

Supreme Court of the United States
One First Street, NE

Washington, DC 20543

Re: United States, ex rel. Laurence Schneider v.
JPMorgan Chase Bank, Nat'l Ass’n, et al., No. 19-678

Dear Mr. Harris:

We represent Respondents JPMorgan Chase Bank, National Association, JP
Morgan Chase & Co., and Chase Home Finance, LLC! in the above-captioned case.
The petition for a writ of certiorari in this case was filed on November 20, 2019.
Respondents’ brief in opposition is due December 26, 2019.

Pursuant to Rule 30.4 of the Rules of this Court, we hereby request an
extension of time of 30 days, to and including January 27, 2020, within which to
respond to the petition. This request for an extension of time is necessary in light of
the work and travel schedules of counsel, particularly in light of the upcoming
holidays.

Sincerely,

Mark W. Mosier

1 Chase Home Finance LLC merged into JPMorgan Chase Bank, N.A., in 2011 and
no longer exists as a separate entity.
